Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants
to the El Cajon Police DepartmentEl Cajon, California

GR-90-03-011


March 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the El Cajon Police Department (ECPD).  The purpose of the grants is to enhance community policing.  The ECPD was awarded $2,471,642 to hire 16 new police officers and redeploy the equivalent of   3.4 existing full-time police officers to community policing.
We found the ECPD to be in compliance with COPS' grant requirements.  We reviewed the ECPD's compliance with seven essential grant conditions and found no weaknesses in each of the areas we tested:  budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officer positions, officer redeployment, and community policing.
Our audit objectives, scope and methodology appear in Appendix I.